No. 19·517

3Jn tbe ~upreme <!Court of tbe Wniteb ~tate~
DANIEL BARBOSA, ET AL., PETITIONERS
V.

UNITED STATES DEPARTMENT OF HOMELAND SECURITY AND
FEDERAL EMERGENCY MANAGEMENT AGENCY, RESPONDENTS
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I certify that the reply brief for
Petitioners contains 2,764 words, excluding the parts of the petition that are
exempted by Superme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 7, 2020 .

.dA'~
Amanda Flug Davidoff
SULLIVAN & CROMWELL LLP
1700 New York Avenue, NW
Suite 700
Washington, DC 20006
(202) 956·7500
davidoffa@sullcrom.com

